No. 20-1010

INTHE

~upreme <!Court of tbe miniteb ~tate%
D ED RRANxBURGAJ

Petitioner
V.

U.S.

ALEJANDRO MAYOR.KAS,
SECRETARY OF HOMELAND SECURITY, ET AL.

Respondents

CERTIFICATE OF SERVICE
Pursuant to this Court's Rule 29 and order of April 15, 2020, I hereby certify that I am a
member in good standing of the bar of this Court and that on this 26th day of February, 2021, I caused
one paper copy and one electronic copy of the Brief of Rapid Defense Network and Justice Action
Center to be served on all parties required to be served by delivery to counsel of record as follows:
Nora Sam Ahmed
ACLU OF LOUISIANA
P.O. Box 56157
New Orleans, LA 70156
(504) 522-0628
nahmed@laaclu.org
Counsel for Petitioner

Elizabeth B. Prelogar
Acting Solicitor General
U.S. D EPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.
Room5616
Washington, D.C. 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents

